C@OCKLE

Le g al Brie fg E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214.

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-127
ANMARIE CALGARO,
Petitioner,
v.
ST. LOUIS COUNTY, MINNESOTA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION
FOR RESPONDENT ST. LOUIS COUNTY, MINNESOTA in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 700 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \ f
State of Nebraska : LE Qudeaw- ‘
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 38581

 

 
